No.

 

 

IN THE

Supreme Court of the United States

AMERICAN HOSPITAL ASSOCIATION, et al.,

Petitioners,
Vv.

Norris COCHRAN, in his official capacity as the Acting Sec-
retary of Health and Human Services, et al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,990 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2021.

 

Wilson-Epes Printing Co., Inc.
